<html>
<title> - [H.A.S.C. No. 111-151] NATIONAL DEFENSE AUTHORIZATION ACT
FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 111-151]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

  BUDGET REQUEST FOR THE DEFENSE THREAT REDUCTION AGENCY AND CHEMICAL 
    BIOLOGICAL DEFENSE PROGRAM AND COUNTERPROLIFERATION INITIATIVES

                               __________

                              HEARING HELD
                             APRIL 14, 2010


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PRINTING OFFICE
57-837                        WASHINGTON : 2010
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001









    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                LORETTA SANCHEZ, California, Chairwoman
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           JOHN KLINE, Minnesota
JAMES R. LANGEVIN, Rhode Island      BILL SHUSTER, Pennsylvania
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
JIM MARSHALL, Georgia                THOMAS J. ROONEY, Florida
BRAD ELLSWORTH, Indiana              MAC THORNBERRY, Texas
PATRICK J. MURPHY, Pennsylvania
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                Eryn Robinson, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                    Andrew Tabler, Staff Assistant












                              C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, April 14, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request for the Defense Threat 
  Reduction Agency and Chemical Biological Defense Program and 
  Counterproliferation Initiatives...............................     1

Appendix:

Wednesday, April 14, 2010........................................    15
                              ----------                              

                       WEDNESDAY, APRIL 14, 2010
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
  THE DEFENSE THREAT REDUCTION AGENCY AND CHEMICAL BIOLOGICAL DEFENSE 
              PROGRAM AND COUNTERPROLIFERATION INITIATIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Chairwoman, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     1

                               WITNESSES

Myers, Kenneth A., III, Director, Defense Threat Reduction 
  Agency, Office of the Secretary of Defense.....................     4
Scarbrough, Brig. Gen. Jess A., USA, Joint Program Executive 
  Officer for Chemical and Biological Defense, Office of the 
  Secretary of Defense...........................................     6
Weber, Andrew, Assistant to the Secretary of Defense for Nuclear 
  and Chemical and Biological Defense Programs, Office of the 
  Secretary of Defense...........................................     3

                                APPENDIX

Prepared Statements:

    Miller, Hon. Jeff, a Representative from Florida, Ranking 
      Member, Terrorism, Unconventional Threats and Capabilities 
      Subcommittee...............................................    21
    Myers, Kenneth A., III.......................................    36
    Sanchez, Hon. Loretta........................................    19
    Scarbrough, Brig. Gen. Jess A................................    59
    Weber, Andrew................................................    22

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
  THE DEFENSE THREAT REDUCTION AGENCY AND CHEMICAL BIOLOGICAL DEFENSE 
              PROGRAM AND COUNTERPROLIFERATION INITIATIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                         Washington, DC, Wednesday, April 14, 2010.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
room 2118, Rayburn House Office Building, Hon. Loretta Sanchez 
(chairwoman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE 
FROM CALIFORNIA, CHAIRWOMAN, TERRORISM, UNCONVENTIONAL THREATS 
                 AND CAPABILITIES SUBCOMMITTEE

    Ms. Sanchez. The subcommittee will now come to order.
    I would like to welcome all of you, and to thank you again 
for joining us today to receive the testimony on the budget 
request for the Defense Threat Reduction Agency [DTRA] and the 
Chemical and Biological Defense Program for fiscal year 2011.
    During this hearing, the assistant to the secretary of 
defense for Nuclear and Chemical and Biological Defense 
Programs will provide the context for the investment to be made 
by these two organizations, along with the updates on the 
current and future counterproliferation initiative. And I 
believe that this hearing comes at a good time, considering 
that we just saw the Nuclear Security Summit this week in 
Washington; and, of course, the release of our Nuclear Posture 
Review.
    As you all know--that the United States is facing new and 
more challenging non-traditional threats on a daily basis, 
including the proliferation of nuclear weapons, the spreading 
of chemical agents, and the increasing biological threat that 
faces our global community. We live in this interconnected 
world, where technology allows the transfer of information to 
be quick and easy; however, this high-tech environment we all 
live in also makes it more difficult for us to respond to 
weapons of mass destruction in a more timely manner.
    And as I was saying earlier to our panelists, one of my 
greatest fears is that one day we are going to detect a non-
traditional agent or unknown pathogen in a certain part of the 
world, and before we can be able to figure out what it is and 
how we counteract that, it has already reached the United 
States' soil.
    And for this reason, the Department of Defense and 
interagency partners have articulated their commitment to 
expanding their capabilities to counter the threat posed by 
weapons of mass destruction. The 2010 Quadrennial Defense 
Review Report, or the QDR, as we know it, provides policy 
guidance on combating weapons of mass destruction.
    And the secretary of defense has directed that several 
initiatives be undertaken, including research and 
countermeasures to, and defenses against, non-traditional 
agents to counter the growing possibility of non-traditional 
chemical agents being used against the United States and on our 
soil; and securing vulnerable nuclear materials through the 
president's Global Lockdown Initiative; expanding the 
Biological Threat Reduction Program to create a global network 
for disease and pathogen surveillance and response.
    So we don't know what is going to come up in the future, 
but we do know that we need to be prepared for whatever may 
come forward.
    The Department of Defense has to have a reliable concept of 
how it would respond, what type of operations--should we face 
something--even something that, to this date--we have no idea 
or it is an unknown. It is also vital that we develop a firm 
and secure form of communication with our allies around the 
world in order to maintain good situational awareness of 
possible threats that may emerge, in particular, with respect 
to the security of our nation.
    Today, we have three witnesses before us that are key to 
the execution of these initiatives. First, we have Mr. Andrew 
Weber, who is the assistant to the secretary of defense for 
Nuclear, Chemical and Biological Defense Programs. Welcome. And 
along with him, we have Mr. Kenneth A. Myers III, Director of 
the Defense Threat Reduction Agency. And we have Brigadier 
General Jess A. Scarbrough, Joint Program Executive Officer for 
Chemical and Biological Defense.
    So, again, I would like to thank the three of our witnesses 
for being here today. I look forward to your testimony. I will 
tell you that we are very interested in your concepts today and 
what you have to tell us from an operational standpoint, and 
how you all work together.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 19.]
    Ms. Sanchez. And, having said that, I am going to yield 
to----
    Mr. LoBiondo. Lobiondo----
    Ms. Sanchez. Mr. Lobiondo--I was looking for Mr. Miller, 
but I didn't see him.
    Mr. LoBiondo. No, he is not here, Madam Chair.
    Ms. Sanchez. Do you have an opening statement--I would 
assume--from the other side?
    Mr. LoBiondo. Thank you, Madam Chair.
    Ranking Member Miller apologizes. He was not able to be 
here for the beginning of the hearing. He has a statement he 
has asked me to have submitted for the record--if I could make 
that request, Madam Chair.
    Ms. Sanchez. So ordered.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 21.]
    Mr. LoBiondo. Okay. Well, thank you very much.
    And I thank the panel for being here today.
    Ms. Sanchez. Great. I thank the gentleman.
    And without objection, the witnesses' prepared testimony 
has been submitted and accepted for the record. I will remind 
you that you each have five minutes or less in which to 
summarize your statements, or tell us something else that you 
want us to know that isn't in your statement.
    So we will begin with Mr. Weber.
    We will lead off with you, for five minutes.

   STATEMENT OF ANDREW WEBER, ASSISTANT TO THE SECRETARY OF 
    DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE 
          PROGRAMS, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Weber. Thank you very much, Madam Chairwoman.
    Members of the subcommittee, it is an honor for me to be 
here today. I welcome this opportunity to discuss Department of 
Defense efforts to counter weapons of mass destruction [WMD].
    The president is determined to implement a comprehensive 
strategy to prevent, deter and defend against weapons of mass 
destruction. His leadership over the past two days, hosting the 
Nuclear Security Summit, clearly has demonstrated the priority 
he places on this issue.
    As he said this week, ``The danger of nuclear terrorism is 
one of the greatest threats to global security.'' From the 
outset, the president committed the United States to take 
``concrete steps towards a world without nuclear weapons,'' and 
to ensure a safe, secure and effective arsenal for as long as 
such weapons are needed.
    In his national strategy for countering biological threats, 
the president warned that, ``Fanatics have expressed interest 
in developing and using biological weapons against us and our 
allies. Addressing these unique challenges requires a 
comprehensive approach that recognizes the importance of 
reducing threats from outbreaks of infectious disease, whether 
natural, accidental or deliberate in nature.''
    Secretary Gates restated this strategic direction regarding 
the full set of chemical, biological, radiological and nuclear 
threats. In the 2010 Quadrennial Defense Review, the secretary 
directed the department to rebalance its policy, doctrine and 
capabilities to better support six key mission areas. One of 
these is to prevent proliferation and counter weapons of mass 
destruction.
    We are working diligently within the department to 
implement a comprehensive strategy to counter weapons of mass 
destruction. The president's fiscal year 2011 budget request 
seeks an 18 percent increase for the Defense Threat Reduction 
Agency, which is the U.S. government's resource for countering 
weapons of mass destruction. These additional funds are focused 
on high-priority efforts that will advance the nation's ability 
to counter WMD.
    They fund significant increases in programs, as you 
mentioned, to secure biological pathogens and vulnerable 
nuclear materials around the world, as well as to pursue 
technologies to strengthen arms-control monitoring and 
verification. In addition, the president announced, in his 
State of the Union Address, that we are launching a new 
initiative that will give us the capacity to respond faster and 
more effectively to bioterrorism or an infectious disease.
    The department is involved in shaping this White House 
initiative, which builds on the excellent work conducted by the 
Department of Defense Transformational Medical Technology 
Initiative, biodefense work at the Defense Advanced Research 
Projects Agency, DARPA, and other organizations throughout the 
department.
    My colleagues here today, and I, are responsible for 
executing much of the DOD countering-WMD effort, in partnership 
with other actors across the department, the interagency, the 
United States Congress, and our friends and allies abroad.
    Mr. Ken Myers, here on my left, serves as the director of 
the Defense Threat Reduction Agency, and he reports through me, 
to the under secretary of defense for Acquisition Technology 
and Logistics, Dr. Ashton Carter. Brigadier General Jess 
Scarbrough, to my far left, serves as the joint program 
executive officer for Chemical and Biological Defense, which is 
the office that develops and procures chemical and biological-
defense equipment for the department.
    The WMD threat poses an immense challenge. Our war fighters 
and our fellow citizens are vulnerable to WMD attack. We must 
shape our defense programs to more effectively prevent, deter 
and defeat this threat. To strengthen these programs, I ask for 
your support of the president's fiscal year 2011 budget 
request. I appreciate the opportunity to testify before you 
today, and would be pleased to answer any questions you may 
have. Thank you.
    [The prepared statement of Mr. Weber can be found in the 
Appendix on page 22.]
    Ms. Sanchez. Thank you, Mr. Weber.
    And, now, we will hear from Mr. Myers for five minutes or 
less.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
      REDUCTION AGENCY, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Myers. Madam Chairwoman, members of the subcommittee, 
it is an honor to be here today to address the 
counterproliferation programs performed by the Defense Threat 
Reduction Agency. The mission of the nearly 2,000 civilian and 
military personnel of DTRA worldwide is to safeguard the United 
States and its allies from chemical, biological, radiological 
and nuclear weapons, as well as high-yield conventional 
explosives. We do this by providing capabilities to reduce, 
eliminate and counter the threat, and mitigate its effect.
    I am also the director of the U.S. Strategic Command Center 
for Combating Weapons of Mass Destruction. The center is 
responsible for the synchronization of planning and advocacy of 
related activities across the combatant commands. It is co-
located with DTRA and fully integrated within the daily 
activities of the agency.
    All studies that have looked at the WMD challenge, 
including, most recently, the QDR, have concluded that 
countering WMD capabilities are crucial to our security. The 
department considers this to be among its top priorities; and, 
therefore, the DTRA fiscal year 2011 budget request is 18 
percent higher than last year's appropriation. This is the 
first significant increase requested by DTRA since the agency's 
establishment nearly 12 years ago.
    I would like to explain how this increased funding responds 
to the president's non-proliferation goals and the QDR.
    In response to the president's initiative to secure 
vulnerable nuclear materials worldwide, DTRA is requesting an 
increase of $74.5 million in Nunn-Lugar Cooperative Threat 
Reduction Funding, and $14.5 million in critical support 
funding for program execution. This will accelerate related 
efforts in the Russian Federation and the establishment of 
Centers for Nuclear Security Excellence in countries outside 
the borders of the former Soviet Union.
    In response to the president's initiative to counter 
biological threats, DTRA is requesting an additional $59 
million to accelerate ongoing efforts across the former Soviet 
Union, and to permit biosecurity upgrades and implement 
globally integrated disease surveillance and reporting systems 
in Asia and Africa.
    To implement the president's strategy of revitalizing arms 
control as a tool for countering weapons of mass destruction, 
DTRA is requesting $9 million to establish a technology-
development program for monitoring and verification of lower 
nuclear-warhead levels, a prohibition on fissile-material 
production, and a ban on nuclear testing.
    We are requesting $48 million to expand and accelerate our 
development of technologies and other support to the U.S. 
Special Operations Command for its Combating Weapons of Mass 
Destruction Terrorism Activities.
    We are also requesting $24 million to accelerate technology 
development, provide expanded training, and procure equipment 
to improve the war fighter's capabilities to search for, locate 
and interdict nuclear and radiological threats.
    Lastly, we are requesting $38 million for expanded DOD and 
interagency information-sharing--provide rapid response to the 
combatant command's request for technical and WMD effects 
analysis; expand collaboration between WMD technical and 
intelligence expertise; and provide for reliable connectivity 
for the execution of the DTRA global mission.
    DTRA is contributing to many other capabilities, including 
nuclear forensics, chemical-biological defense, the 
Proliferation Security Initiative, the International 
Counterproliferation Program, system survivability against WMD 
effects, and force protection.
    For example, DTRA recently completed a series of tests in 
support of a massive ordnance penetrator, or MOP, the largest 
air-deliverable conventional weapon available for use against 
underground facilities, many of which are associated with WMD. 
The MOP program transitioned from DTRA to the Air Force, due to 
the close teamwork between our offices at Fort Belvoir, 
Virginia, Eglin Air Force Base, in Florida, Kirtland Air Force 
Base and White Sands Missile Range in New Mexico.
    The MOP is just one example of the teamwork seen across 
DTRA and our other partners every day.
    Before concluding, I would like to express my commitment to 
the efficient and effective management of the additional 
funding that DTRA is requesting. Our past performance indicates 
that we can obligate and extend funding made available to us. 
We have a steady track record of efficient program execution. 
Recently, we effectively implemented a significant increase in 
nuclear-mission support that has produced real results.
    Second, we have contracts in place with sufficiently high-
funding ceilings to permit the rapid obligation and expenditure 
of additional funding. Third, efforts are ongoing to 
aggressively monitor and refine implementation plans to ensure 
timely and effective execution, and eliminate any potential 
obstacles.
    I urge your support for the DTRA fiscal year 2011 budget 
request, the first significant increase in resources sought by 
the agency in some twelve years. We will put these resources to 
good use to better equip, train and protect our war fighters, 
and safeguard the American people. Thank you for your support 
of DTRA and the Strategic Command [STRATCOM] Center for 
Combating WMD [SCC-WMD] in prior years, and for the opportunity 
to be here today. I look forward to answering your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 36.]
    Ms. Sanchez. Thank you, Mr. Myers.
    And, now, we will hear from General Scarbrough for five 
minutes or less.

STATEMENT OF BRIG. GEN. JESS A. SCARBROUGH, USA, JOINT PROGRAM 
 EXECUTIVE OFFICER FOR CHEMICAL AND BIOLOGICAL DEFENSE, OFFICE 
                  OF THE SECRETARY OF DEFENSE

    General Scarbrough. Madam Chair and distinguished members 
of the subcommittee, I am honored to testify on behalf of the 
Chemical and Biological Defense Program. I will identify what 
the program contributes in the areas of biosurveillance, 
medical countermeasures and non-traditional agents. Before I 
conclude, I will speak briefly about acquisition reform.
    The Chemical and Biological Defense Program is uniquely 
positioned to leverage its enterprise capabilities for 
biosurveillance. We produce Food and Drug Administration [FDA]-
approved medical diagnostics and develop and field systems that 
monitor the environment for biological threats.
    For example, we have succeeded in tying medical diagnostic 
and surveillance capabilities together with biological 
detectors to provide a common operating picture within the 
United States Forces Korea theater of operations. Another 
example is our capability for medical response and 
preparedness, an important element of biosurveillance.
    In 2009, working with the Centers for Disease Control and 
Prevention, we added identification of H1N1 flu as a capability 
on a system we developed that provides the war fighter a way to 
identify and diagnose human disease.
    The Food and Drug Administration granted our emergency-use 
authorization request in short order. We are continuing to 
expand this diagnostic capability to include other infectious 
diseases.
    With respect to medical countermeasures, we partner with 
government, industry, academia and international organizations 
for material development and manufacturing of Food and Drug 
Administration approved products and systems. We have 
interagency agreements with the Centers for Disease Control and 
Prevention to share licensed anthrax and smallpox vaccines from 
the Strategic National Stockpile. The agreements establish the 
framework for the acquisition, storage, management and delivery 
of these vaccines to meet Department of Defense operational and 
inventory requirements.
    Another example of collaboration and coordination is the 
Integrated National Biodefense Portfolio Initiative, also known 
as the One-Portfolio, which synergizes efforts of the 
Department of Defense and the Department of Health and Human 
Services, as well as other agencies whose missions involve 
addressing the same challenges; the vision of government-wide 
coordination of research and development of medical 
countermeasures for biological threats.
    Regarding innovation, the Chemical and Biological Defense 
Program's Transformational Medical Technologies Initiative 
continues to gain momentum. Over the next 24 months, we will 
continue clinical studies in support of licensure of maturing 
hemorrhagic fever virus therapeutics and submit Investigational 
New Drug applications for additional medical countermeasures 
against intercellular bacteria pathogens and hemorrhagic fever 
viruses.
    With respect to non-traditional agent threat, we are 
working to field solutions in the areas of detection, medical 
countermeasures, decontamination and protection, along with 
associated doctrine, equipment and training. We are planning to 
rapidly field, in the near term, capabilities, in fiscal year 
2011, and will continue to improve upon those capabilities and 
provide them to other units.
    Changes to the Defense Acquisition System, directed by 
Congress, are refocusing the way we manage acquisition 
programs. These are new requirements for analysis of 
alternatives prior to initiating the acquisition process: 
increased competition, competitive prototyping, and the 
evaluation of technology maturity so that our acquisition 
programs are ready for the next phase of development.
    In order to reduce the risk of failure, we are applying the 
tools of acquisition reform to programs that pose particular 
technical challenges.
    The bottom line for us remains providing capability to the 
war fighter. In fiscal year 2009, we fielded over 1.3 million 
individual pieces of equipment to our servicemen and women 
around the globe, representing improvements and capabilities 
they depend on for protection.
    While our investments in biosurveillance, medical 
countermeasures and non-traditional agents are the focus, we 
must neither underfund nor deemphasize the range of investments 
that establish the layered defense-in-depth strategy we employ 
to protect and inform our personnel. This strategy requires 
significant investment, as reflected in the president's fiscal 
year 2011 budget request for our program, which consists of 
$370 million for procurement, $812 million for advanced 
development, and $396 million for science-and-technology 
efforts, for a total of $1.578 billion.
    Madam Chair and members of the subcommittee, I greatly 
appreciate the opportunity to appear before you today, and look 
forward to your questions.
    [The prepared statement of General Scarbrough can be found 
in the Appendix on page 59.]
    Ms. Sanchez. Thank you, General.
    And, now, as is the custom, I will remind the members that 
each of us will have five minutes to ask questions. And I will 
start with myself.
    Mr. Weber, when we met earlier, I asked you, ``What 
questions should I ask you guys?'' And you said, ``Ask us what 
keeps us awake at night.''
    So I will ask it in a different way: What threat to the 
homeland--chemical, biological, nuclear--has the highest 
likelihood of happening in the next five years, and why? What 
do you see as the hardest-hitting thing towards the U.S.?
    Mr. Weber. The----
    Ms. Sanchez. Is your mic on?
    Mr. Weber. Yes.
    Ms. Sanchez. Okay.
    Mr. Weber. The threat that I worry about--the two threats 
that I worry about most are the delivery by violent extremists 
of a ten kiloton blast with an improvised nuclear device in an 
American or allied city, and also a biological attack, for 
example, with one kilogram of anthrax, in a city.
    Each one would have potentially catastrophic consequences. 
And the Congressional Commission on Weapons of Mass Destruction 
that Senator Graham and Congressman Talent co-chaired evaluated 
the risk of the different types of weapons of mass destruction. 
Their conclusion was that the biological-terrorist threat was 
the most likely.
    In terms of the accessibility of the technology and the 
materials--the seed materials--that would be required for a 
terrorist group to obtain a biological-weapons capability--I 
agree with that conclusion.
    Ms. Sanchez. Thank you.
    Are we appropriately allocating our budget with respect to 
that understanding? And, if not, what would you change?
    Mr. Weber. Okay. I will answer that, and ask my colleagues 
to add to that.
    But what you see in the president's fiscal year 2011 budget 
request is an increase in each of these areas. I believe this 
is the beginning of a trend.
    The Defense Threat Reduction Agency, which is the 
Department of Defense--really, the U.S. government's Center of 
Excellence for the Countering WMD mission was more or less 
flat-lined during the last ten years, even after the 9/11 
attacks on the United States. So the Obama administration has, 
in its budget, proposed an 18 percent increase, which reflects 
the increased priority on this mission set.
    Those increases are at a level that we can absorb and 
execute responsibly. And I would ask my colleague, Ken Myers, 
the director of the Defense Threat Reduction Agency, to 
elaborate further. Thank you.
    Ms. Sanchez. Great, because that is the question I had for 
him.
    What are you going to do that--with that 18 percent, and is 
it enough? And----
    Mr. Myers. Madam Chairwoman, the 18 percent is a 
significant increase in the funding that we will have available 
to confront the threats posed by weapons of mass destruction. 
As the QDR lays out, one of our major strategies is erecting 
layers or lines of defense between the sources of these threats 
and the American people.
    The most effective place for us to counteract and eliminate 
these threats before they adversely affect the U.S. war 
fighter, as well as the American people, is at the source, 
which is why I think the president has focused a lot of 
attention on global nuclear lockdown, eliminating these 
problems before they spread, and for countering biological 
threats, again, at their source.
    If our programs and our efforts at the source are incapable 
of stopping these threats before they leak out--before they 
begin moving to harm the American people--we will seek to 
engage governments and countries at the borders, increasing 
their ability to interdict, to detect and, if need be, destroy 
these weapons and these materials, before they threaten the 
American people.
    We are working to address the problem at each layer, each 
line of defense, that we are possibly able to erect between the 
threats and the American people. And I believe the 18 percent 
increase that we are requesting as part of the Defense Threat 
Reduction Agency budget is a good spread across all of the 
opportunities and all of the capabilities that we have to bring 
to bear against the threat.
    Ms. Sanchez. Thank you, Mr. Myers.
    General, as of February, 08, 2010, less than two percent of 
the fiscal year 2010 Chemical and Biological Defense Program 
[CBDP] procurement, or Research, Development, Test and 
Evaluation [RTD&E] funds have been expended. And only about 
half of the fiscal year 2009 procurement have been expended. 
Why is the execution rate at these levels? And is the low 
execution rate impacting our chemical and biological-defense 
capabilities? And can you provide updated information that 
demonstrates that the execution of CBDP funds is improving?
    General Scarbrough. Madam Chair, first I would like to 
thank you for your support to the Chemical and Biological 
Defense Program. We have significantly improved our obligation 
and expenditure rates for both procurement and RDT&E in fiscal 
year 2008 and fiscal year 2009. And we exceed the established 
Department of Defense goals in both of those appropriations.
    With respect to fiscal year 2010, we are a little bit 
behind. We have just received our allocation just a couple of 
months ago. But we are rapidly catching up, and we should be 
exceeding our goals by July of this year.
    Ms. Sanchez. So, at the last point where we saw it, it was 
at two percent appropriation expenditure. Are you saying that 
you have--how far have you caught up, when you say that, ``We 
have been working on this''?
    General Scarbrough. With respect to the fiscal year 2009?
    With respect to fiscal year 2009 expenditures, for the 
Chemical and Biological Defense Program, we are 60.8 percent 
expended for fiscal year 2009, which is above the established 
DOD goal of 43 percent.
    Ms. Sanchez. And for 2010?
    General Scarbrough. For fiscal year 2010, we are at--for 
expenditures, we are at 4.5 percent, and the goal is 11.5 
percent. So we are below the goals, but we are rapidly catching 
up, given that we received our allocation authority a couple of 
months ago.
    Ms. Sanchez. Is your inability to--is this a problem? It 
seems to me like what you are saying is, ``Well, we didn't know 
the amounts--for maybe that way--we didn't really know what we 
had to spend, so we didn't really fully go into what we were 
going to do.'' Is that a problem as we try to gear up this 
program to face the threats that we have out there?
    General Scarbrough. Ma'am, I would say it is not a problem. 
We have been operating at the pace that has been approved by 
the Department of Defense and Congress. And, then, once we got 
our funding-allocation documents, once the budget was approved 
in fiscal year 2010--in January, we, then, accelerated that. 
And, as I mentioned to you earlier, we have contractual 
vehicles in place, or will be in place, to be on pace to exceed 
the DOD goals, you know, by July.
    Ms. Sanchez. Okay. Thank you, General.
    I will now recognize the gentleman from New Jersey for his 
question.
    Mr. LoBiondo. Thank you, Madam Chair.
    This could be, basically--be for anyone on the panel.
    What is the current plan for weapon-system survivability 
from a chemical or biological attack?
    General Scarbrough. Sir, may I ask for you to repeat the 
question again, please?
    Mr. LoBiondo. What is the current plan for weapon-system 
survivability from a chemical or biological attack?
    General Scarbrough. First off, sir, we have delivered, as I 
said in my oral statement, over 1.3 million individual pieces 
of equipment to our war fighters across all of the services--
Army, Air Force, Navy and Marine. Those pieces of equipment 
have included decontamination detection, medical diagnostics 
and individual protection such as masks, boots, gloves and 
suits. So we feel that we have equipped our soldiers, airmen, 
sailors and Marines with the capability to operate if they were 
to get hit with a chemical or a biological attack.
    Mr. LoBiondo. Anybody else that is----
    Mr. Myers. Much of the work that the Defense Threat 
Reduction Agency does, sir, in that area, is with regard to 
Electromagnetic Pulse [EMP] and nuclear potential. In that 
area, we perform technology assessments. We provide technical 
assistance to our war fighters, and to our systems.
    We recently developed simulators and specialized equipment 
for testing of missiles, aircrafts or ships. We routinely 
provide support to STRATCOM, Northern Command [NORTHCOM], and 
the Office of the Secretary of Defense [OSD] on a wide range of 
EMP threats. And we are also actively involved in assessing the 
impact of such an attack on the U.S. power grid, our 
telecommunications systems, as well as emergency-service 
infrastructures.
    Mr. LoBiondo. Can you, in an open setting like this, talk 
any more about how we prepare for EMP attack, and the--there is 
a lot of talk about what that may mean, and how we go about 
this. I don't know if we are in the right setting for that or 
not.
    Mr. Myers. I can talk--very general terms, obviously. We 
are seeking to harden all of those capabilities to the point 
where they would be, if not immune, able to withstand those 
types of strains and pressures that we--put on by that type of 
attack. Beyond that, sir, I would not----
    Mr. LoBiondo. Okay. Well, maybe can--talk to Mr. Miller, 
and talk to you, Madam Chair, about a closed session to talk 
about that a little bit more?
    By which mechanisms are the intelligence community 
coordinating and sharing information pertaining to WMD threats 
with appropriate officials in the Department of Defense or 
other key U.S. agencies? Is that where it should be? Is it up 
to snuff? Does more need to be done?
    Mr. Weber. Congressman, we get briefed on a daily basis by 
the intelligence community on the whole range of WMD threats. 
In addition, the Office of the Director of National 
Intelligence [ODNI] participates in the Counterproliferation 
Program Review standing committee so we can align resources and 
investments that are being made in the countering-WMD area.
    I would say that the reporting that we get on the threats 
from state programs is excellent and extremely helpful in 
helping us prioritize where we should be expending resources.
    Generally, reporting on nuclear threats is quite good. 
There is, I would say, as a consumer of intelligence, room for 
improvement on collection and analysis on biological-weapons 
threats, which are a very difficult target.
    Mr. Myers. If I may just add very quickly--one of the 
efforts that is currently underway between the Defense Threat 
Reduction Agency and the Defense Intelligence Agency is working 
together in co-located spaces to work together on some of the 
potential WMD threats; in other words, bringing the 
intelligence analysts together with the technology experts, 
with those systems engineers that are responsible for designing 
the approaches that we would take in dealing with those WMD 
threats.
    So, as the assistant secretary mentioned, there is work to 
be had, and to move forward and improve. But I think one of the 
things that we have found is that bringing the experts together 
at a working level is a good step in the right direction.
    Mr. LoBiondo. Thank you, Madam Chair.
    Ms. Sanchez. Considering that most of our membership is not 
here today--I don't know if you have any other questions. I do 
know that they are about to call votes on the House floor. So 
if you have finished yours, I will end with one last question. 
And I will also let you gentlemen know that I am sure that the 
members will be submitting questions for the record. I don't 
know where they are. I am going to have to go round them up and 
push them a little bit about getting here to meetings.
    So they will be submitting, I am sure, by writing some 
questions. We ask that you answer them quickly so that we can 
glean as much as we can from this. Again, I appreciate you 
coming before us today.
    So my last question for you all would be: If there is 
something we should have asked, but we didn't ask about?
    Let us start with Mr. Weber.
    Mr. Weber. Well, you mentioned at the opening, our 
discussion about--you know, ``What do we lose sleep over?'' And 
what I worry about is the day after an attack using weapons of 
mass destruction. Is there something that we should have been 
doing faster and more effectively to have prevented that? Or I 
worry as much--is there something that we should have been 
doing, but weren't.
    And that is where we look to--certainly, we do some 
thinking internally within the U.S. government, but we also 
look to our partners in Congress to identify potential program 
areas where we don't have programs to address key gaps.
    I would say that one question that, by the nature of these 
threats, is a good one to ask, is: How are we working across 
the interagency because these are, by definition, crosscutting 
problems? The biological threat is one that the Department of 
Health and Human Services plays a very important role in 
countering. And the Department of Defense works very closely 
under the White House leadership. We have been meeting once a 
week with the Department of Defense and counterparts--the 
director of the Centers for Disease Control and Prevention, Tom 
Frieden, and the FDA administrator, Peggy Hamburg--Tony Fauci, 
from the National Institutes of Health, and my counterpart in 
the Department of Health and Human Services, Doctor Nicole 
Lurie.
    In the countering-nuclear-terrorism arena, we work on a 
daily basis with the Department of Energy--again, with very 
strong leadership from the White House, from the WMD czar and 
the so-called WMD czar, Gary Samore, and his staff, and also 
from the Homeland Security side, under John Brennan's 
leadership.
    So there is, I would say--having spent some time in 
Washington, working on these problems--there is better-than-
ever integration of effort and high-level attention on this 
problem. And it certainly makes our jobs easier having a 
president of the United States who understands and has made 
these threats a very, very high priority. Thank you.
    Mr. Myers. Madam Chairwoman, the one item I think that I 
would enunciate a little bit more is our role as a combat-
support agency--our support for our servicemen and women.
    Many don't consider the connection between the agency and 
our men and women in uniform because of our role in WMD. But we 
do our very best to support them in a number of ways--first and 
foremost, our role in helping them synchronize their planning 
and their activities to dealing with a WMD emergency or threat.
    Secondly, we provide 24-hour-a-day, 7-day-a-week reach-back 
support. If the war fighter or combatant commander is in need 
of information analysis, we are a telephone call or a ``send'' 
button away in terms of being able to do everything from plume 
analysis to various different types of information provisions.
    Thirdly, we help them with consequence management, force-
protection assessments. We have teams that go out to our men 
and women in uniform, deployed abroad, and provide them with 
the assessments they need to improve the security surrounding 
their facilities.
    And lastly, we do an awful lot of--provide an awful lot of 
support for both the functional as well as the combatant 
commands in terms of targeting; in terms of identifying the 
best planning that is necessary to take down these potential 
threats before they manifest themselves.
    General Scarbrough. Madam Chairman, I would also like to 
add to what Mr. Weber and Mr. Myers stated with respect to 
interagency coordination. Within the CBDP program, we do a lot 
of interagency coordination with the Department of Health and 
Human Services, specifically on the recent H1N1 outbreak, where 
we worked a diagnostic assay that we built for a biodefense 
mission set, but we applied it to diagnosing infectious human 
disease--a dual-use capability.
    At the same time, we were able to test potential broad-
spectrum therapeutics via the Transformational Medical 
Technologies Initiative, to get capability out quickly to the 
war fighter, as well as to the population.
    The other thing I would say with--the Department of 
Homeland Security--we work very closely with them, with our 
Installation Protection Program, and support them with respect 
to BioWatch, as well as supporting the weapons of mass 
destruction civil-support teams, and providing capability to 
the National Guard to support those homeland missions.
    And, then, the last thing, ma'am, is I would highlight that 
we--one of my biggest priorities as a joint PEO [Program 
Executive Officer] is acquisition reform. And we work every day 
to improve our ability, taking the acquisition-reform 
initiatives before us under the Weapons Systems Acquisition 
Reform Act of 2009, to mitigate risk--do more work early on in 
the acquisition lifecycle to mitigate risk down the road.
    Ms. Sanchez. Great.
    I notice that Mr. Murphy, of New York, came in. Do you have 
any questions for our panel?
    Well, welcome.
    As I said, votes are ready to be called any moment. So I 
thank the gentlemen for being before us today. I thank you for 
your testimony. As I said, we will have, probably, some written 
questions from some of the members who weren't able to attend. 
And, again, I thank you, and thank you for the service to our 
country. And the subcommittee is adjourned.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                             April 14, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2010

=======================================================================

      

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT



                                  <all>

</pre></body></html>
